Audit Report




OIG-12-024

Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2011 and 2010 Financial Statements

December 8, 2011




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF                                  December 8, 2011
INSPECTOR GENERAL




            MEMORANDUM FOR JAMES H. FREIS, JR., DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Financial Crimes Enforcement Network’s
                                     Fiscal Years 2011 and 2010 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement Network’s
            (FinCEN) financial statements for fiscal years 2011 and 2010. Under a contract
            monitored by the Office of Inspector General, GKA, P.C. (GKA), an independent
            certified public accounting firm, performed an audit of the financial statements of
            FinCEN as of September 30, 2011 and 2010 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget Bulletin
            No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control Over Financial Reporting; and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United States of
                    America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed GKA’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit
performed in accordance with generally accepted government auditing standards, was
not intended to enable us to express, and we do not express, an opinion on the financial
statements or conclusions about the effectiveness of internal control or compliance with
laws and regulations. GKA is responsible for the attached auditor’s reports dated
November 14, 2011 and the conclusions expressed in the reports. However, our review
disclosed no instances where GKA did not comply, in all material respects, with
generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member of
your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
                                                                      1015 18th Street, NW
Certified Public Accountants                                               Suite 200
& Consultants                                                        Washington, DC 20036
                                                                       Tel: 202-857-1777
                                                                       Fax: 202-857-1778
                                                                       www.gkacpa.com




      Financial Crimes Enforcement Network
                AUDIT REPORT
                  Fiscal Year 2011

         DEPARTMENT OF THE TREASURY
              WASHINGTON, D.C.




                               Member of the American Institute of Certified Public Accountants
                                             TABLE OF CONTENTS


Management’s Discussion and Analysis ...................................................................................1

Financial Statements:

         Balance Sheets ...............................................................................................................7
         Statements of Net Cost...................................................................................................8
         Statements of Changes in Net Position..........................................................................9
         Statements of Budgetary Resources.............................................................................10
         Statements of Custodial Activity .................................................................................12
         Notes to Financial Statements......................................................................................13

Required Supplementary Information......................................................................................30

Independent Auditor’s Reports:

    Independent Auditor’s Report on Financial Statements ....................................................34
    Independent Auditor’s Report on Internal Control over Financial Reporting...................36
    Independent Auditor’s Report on Compliance with Laws and Regulations......................38
                           United States Department of the Treasury
                            Financial Crimes Enforcement Network

                              Management's Discussion and Analysis
                                     September 30, 2011


The Financial Crimes Enforcement Network (FinCEN), a Treasury bureau reporting to the Under
Secretary of the Office of Terrorism and Financial Intelligence, plays a key role in supporting the
Department’s strategic goal to ‘combat illicit financial activity to advance national security and
the integrity of the financial system.’ This role includes ensuring safer and more transparent U.S.
and international financial systems through the administration of the Bank Secrecy Act (BSA).

FinCEN furnishes analytical and financial expertise in support of law enforcement investigations
and prosecutions and to determine emerging trends in money laundering and other financial
crimes. FinCEN also serves as the nation’s financial intelligence unit (FIU). An FIU serves as a
national center to collect, analyze, disseminate, and exchange information pursuant to a country’s
anti-money laundering/counter-terrorist financing (AML/CFT) legislation and regulations.

FinCEN’s activities and efforts are developed in coordination with federal, state, and
international partners. These efforts are linked to the following bureau strategic goals:

   •   Financial systems resistant to abuse by money launders, terrorists, and their financial
       supporters, and other predators of financial crime;
   •   Detection and deterrence of money laundering, terrorism financing, and other illicit
       activity; and
   •   Efficiency management, safeguarding, and use of BSA information.

In this environment of declining resources, FinCEN is uniquely positioned at the intersection of
financial industry, regulators, law enforcement agencies, and global partners, and is able to
network these different perspectives to bring holistic insights to the detection and deterrence of
financial crime. This position allows FinCEN to support and develop a multitude of partnerships
that have a broad impact globally and through the law enforcement and financial sectors.


FY 2011 Accomplishments

FinCEN’s accomplishments in FY 2011 include:

   •   Enhanced collaboration with law enforcement to identify sources of lead information,
       developed analysis criteria to more effectively leverage BSA data to identify potential
       non-compliant institutions, strengthened relationships with state regulators and enhanced
       effectiveness of examinations through greater engagement with and coordination of IRS
       and state efforts. This strategy has assisted FinCEN in taking action against money


                                                 1
       transmitters that have failed to register with FinCEN as well as against other non-
       compliant institutions, as warranted;
   •   Continued participation in the U.S. Government’s coordinated attack on mortgage fraud
       by updating analyses of Suspicious Activity Reports (SARs) and issuing financial
       institution advisories to highlight current trends in residential and commercial mortgage
       loan fraud, and in loan modification and foreclosure rescue scams;
   •   Support for federal law enforcement efforts to combat health care fraud (HCF) by
       initiating an advanced targeting process to identify potential health care fraud perpetrators
       and to provide analytical support to investigations and prosecutions. This included work
       with several of the multi-agency Health Care Fraud Prevention and Enforcement Action
       Teams, participation in HCF related conferences/training sessions, and expansion of
       analytical support efforts to additional federal, state and local law enforcement agencies;
   •   Creation and dissemination of a large number of tactical financial intelligence reports to
       Egmont Group FIUs and managed case exchange with FIUs on behalf of U.S. law
       enforcement and regulatory agencies. These intelligence products are integral to domestic
       and foreign investigations of money laundering, financial fraud, and terrorist financing
       around the world; and
   •   Two releases of functionality through the deployment of a new, advanced analytical tool
       on the current technical platform to the FinCEN analysts as part of the BSA IT
       Modernization Program. In support of Treasury’s Data Center Consolidation efforts,
       FinCEN worked with the Bureau of Public Debt to establish the first iteration of the
       modernized Production and Disaster Recovery environment. FinCEN also completed an
       initial, limited deployment of the new Registered User Portal, which will eventually serve
       as the entryway to all BSA programs and tools to the user community.


Highlights of Performance Measures

Performance Measures                                                      FY        FY        FY
                                                                         2010      2011      2011
                                                                        Actual    Target    Actual
Percentage of regulatory helpline customers understanding BSA            92%       90%       92%
guidance
Percentage of financial regulators finding information exchanged          86%      86%        92%
with FinCEN under MOUs valuable to improve BSA consistency
and compliance
Percentage of domestic law enforcement finding FinCEN’s analytic         80%       80%        86%
reports contribute to the detection and deterrence of financial crime
Percentage of foreign FIUs finding FinCEN’s analytic reports             90%       90%        92%
provide valuable information towards the detection and deterrence
of financial crime
Percentage of customers finding the BSA data provides valuable           87%       86%        89%
information towards the detection and deterrence of financial crime



                                                 2
In the regulatory area, FinCEN surveys its compliance memoranda of understanding (MOU)
holders to determine the impact of the information exchange to improve the consistency and
compliance of the financial system with FinCEN’s regulations implementing the BSA. In FY
2011, FinCEN met its target of 86 percent with 92 percent rating the information exchange
valuable. FinCEN attributes a portion of this success to enhancements made to the products
prepared for the state regulators.

FinCEN’s goal to provide financial institutions with understandable guidance is critical to
institutions establishing anti-money laundering programs that comply with FinCEN’s regulations.
Understandable guidance will also contribute to protecting financial institutions and their
customers from financial crime. In FY 2011, FinCEN’s goal was to maintain a 90 percent
satisfaction level and FinCEN met its target with 92 percent. FinCEN attained this success by
responding timely (within 24 hours of the inquiry) and providing a high level of service.

In the analytical area, FinCEN supports domestic law enforcement and international FIU partners
by providing analyses of BSA information, and measures the percentage of customers finding
FinCEN’s analytic reports highly valuable. In FY 2011, FinCEN discontinued the “Percentage of
domestic law enforcement and foreign financial intelligence units finding FinCEN's analytic
reports highly valuable” and replaced it with the following two performance measures based on
customer served. Breaking the measure out will enable FinCEN to better assess its performance
and focus on the distinct needs of its domestic law enforcement and foreign FIU customers. The
two measures closely tie to how BSA information is used by law enforcement and foreign FIUs
to identify, investigate, and prevent abuse of the financial system.

The first measure looks at the value provided to the domestic law enforcement community. In FY
2010, FinCEN set the baseline for this performance measure with 80 percent rating the analytic
products as valuable. In FY 2011 86 percent of the domestic law enforcement respondents rated
the analytic products as valuable. FinCEN attributes this performance to its focus on increased
communication with law enforcement partners; case support where FinCEN could add value to
investigative efforts, and products and services developed to meet the needs of its customers.

The second measure tracks the value of the analytic reports to foreign FIU customers. In FY
2010, FinCEN set a baseline for this measure of 90 percent. In FY 2011, 92 percent of foreign
FIUs rated the analytic products as valuable. FinCEN attributes FIUs’ high satisfaction with its
analytical reports primarily to the quality, quantity and timeliness of information provided.
FinCEN’s response time to FIU requests decreased from 41 days in FY 2009 to 32 days in FY
2011, approaching the Egmont Group goal of 30 days. FinCEN’s bilateral and multilateral
international liaison work enhances the sharing of information while building stronger
relationships with foreign FIUs.

In the efficient management, safeguarding, and use of BSA information, FinCEN began tracking
the value of the BSA information to law enforcement and regulatory agency users with direct
access to the BSA data. This is a composite measure compiled from survey results. The survey
looks at the value of BSA data, such as whether the data provided unknown information,
supplemented or expanded known information, verified information, helped identify new leads,

                                                3
opened a new investigation or examination, supported an existing investigation or examination,
and provided information for an investigative or examination report. The FY 2011 actual for the
percentage of customers finding the BSA data provides valuable information towards the
detection and deterrence of financial crime was 89 percent. FinCEN attributes this performance
to its efforts to ensure BSA information collected has a high degree of usefulness for criminal,
tax, or regulatory purposes, and its training and access programs, which are designed to ensure
understanding of the value of the data and maximize its utilization.

Future Outlook for FY 2012

In order to achieve its priorities and continue to advance its strategic goals, FinCEN will improve
its ability to strengthen financial system security and enhance U.S. national security. It will
continue to ensure that financial systems are resistant to abuse and continue to develop analytical
products and services to support law enforcement activities. To deter financial fraud and ensure
the security of financial systems, FinCEN will:

   •   Continue to enhance proactive BSA compliance and enforcement through stronger
       relationships with state regulatory agencies, greater communication with law
       enforcement, strengthened analytics, and development of compliance strategies for newly
       regulated sectors;
   •   Continue to advance regulatory initiatives designed to further protect the U.S. financial
       system from abuse while balancing their impact on the financial industry. This would
       include carefully considering public comment on and weighing changes to proposed rules
       as appropriate;
   •   Expand and leverage law enforcement and private sector contacts in the Southwest
       Border and in other high threat jurisdictions for the purpose of developing and sharing
       real-time or actionable intelligence on related money laundering patterns, trends, and
       methods;
   •   Support law enforcement efforts to combat illicit activities through the fusion of
       investigative data with the BSA to provide complex analytical products that advance
       investigations and prosecutions;
   •   Expand joint analytical projects with foreign FIUs, particularly in the areas of proactive
       and strategic analysis. Just as FinCEN receives BSA reports, each FIU receives domestic
       reporting on financial activity. By working together, FinCEN and foreign FIUs can find
       connections in data streams relating to suspicious activity that otherwise would not be
       found;
   •   Continue to deploy modernized BSA information management and query/analysis
       capabilities to FinCEN analysts, law enforcement customers, and financial industry
       regulators to facilitate decision-making, increase the value of BSA information through
       increased data integrity and improved query/analytical tools, and move Treasury to the
       ultimate goal of being a “paperless” agency by mandating that BSA information is filed
       electronically. FinCEN will also begin working on the system design to accommodate the
       collection of cross border electronic funds transfer information; and
   •   Incorporate common requirements identified by law enforcement and regulatory agencies
       into the BSA IT Modernization project that will be operational in FY 2013. These

                                                 4
       common requirements mitigate duplication of effort by these agencies further
       downstream. FinCEN will also seek to leverage the new IT capabilities to enhance
       longstanding efforts to help coordinate and deconflict among various federal, state and
       local agencies that might be investigating related subjects or similar types of financial
       crime.


FY 2011 Financial Statement Highlights

Highlights of FinCEN’s FY 2011 financial performance appear below. FinCEN is financed
annually through appropriations authorized by Congress. The FY 2011 enacted budget is $111
million.

Balance Sheets: Assets: The total assets as of September 30, 2011 and 2010 were $92.0 and
$63.5 million, respectively, of which approximately 57.01 percent consists of fund balance with
Treasury in 2011 and 74.3 percent in 2010. Total assets increased by $28.5 million. This
increase primarily resulted from a $21.6 million increase in plant and equipment as a result of IT
Modernization for internal use software capitalization. It also included a $5.2 million increase in
the fund balance with Treasury, a $2.1 million increase in accounts receivable, and an offset of
$0.6 million decrease in advances and prepayments. Liabilities: The total liabilities as of
September 30, 2011 and 2010 were $15.9 and $13.9 million, respectively. There was an
approximately $2.0 million increase in the total liabilities in FY 2011 over FY 2010. The
increase was a result of the Information Technology Project referred to as BSA IT
Modernization.

Statement of Net Costs: The net cost of operations as of September 30, 2011 and 2010 were
$120.4 and $124.7 million, respectively. This decrease of $4.3 million from 2010 is attributable
to IT Modernization project’s capitalization, now reflected as fixed assets. All of FinCEN’s
costs are reported under the Department of the Treasury’s Strategic Goal 3: Prevented Terrorism
and Promoted the Nation’s Security through Strengthened International Financial Systems.
FinCEN’s net cost aligned to its own Strategic Goals is disclosed on the face of the statement of
net cost. A significant portion of FinCEN’s net costs ($58.5 million or 48.5 percent) relates to
FinCEN’s Strategic Goal 3: Efficient Management, Safeguarding and Use of BSA Information.

Internal Controls, Systems, and Audits

Financial management systems are in substantial compliance with the requirements imposed by
the Federal Financial Management Improvement Act (FFMIA), and applicable sections of the
Federal Manager’s Financial Integrity Act (FMFIA). FinCEN relies on the Bureau of Public
Debt (BPD) Administrative Resource Center (ARC) for administrative and accounting services
and systems.




                                                 5
Improper Payments Elimination and Recovery Act (IPERA) Reporting

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires agencies to
review their programs and activities increasing efforts to recapture Improper payments by
intensifying and expanding payment recapture audits. All agencies are required to develop a
method of reviewing all programs to identify those that are susceptible to significant erroneous
payments. “Significant” means that an estimated error rate and a dollar amount exceed the
threshold of 2.5 percent of programs outlays and $10 million of total program or activity
payments made during the fiscal year reported or $100,000,000 regardless of the improper
payment percentage of total program outlays.

As a bureau of the Department of the Treasury, FinCEN follows the methodology and guidance
prescribed by the Department. Each year, a comprehensive inventory of the funding sources for
all programs and activities is developed. For those payment types resulting in high risk
assessments that comprise at least 2.5 percent of program outlays and $10 million of a total
funding source, (1) statistical sampling must be performed to determine the actual improper
payment rate, and (2) a corrective action plan to reduce erroneous payments must be developed
and submitted to the Office of Management and Budget (OMB) for approval.

All of FinCEN’s programs and activities resulted in low risk susceptibility for improper
payments.

Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of FinCEN. While the statements have been prepared from the books and records
of FinCEN in accordance with GAAP for federal entities and the formats prescribed by OMB,
the statements are in addition to the financial reports used to monitor and control budgetary
resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 6
                           United States Department of the Treasury
                            Financial Crimes Enforcement Network
                                        Balance Sheets


                                                                As of September 30
                                                        2011                         2010


ASSETS (Note 2)
Intragovernmental:
  Fund balance with Treasury (Note 3)                  $52,454,502                   $47,217,643
  Accounts receivable (Note 4)                           6,468,599                     4,321,943
  Advances and prepayments                                 471,291                     1,033,977
Total intragovernmental                                 59,394,392                    52,573,563


  Accounts receivable, net (Note 4)                            35,062                       1,851
  Property and equipment, net (Note 5)                  32,580,135                    10,972,052

Total assets                                           $92,009,589                   $63,547,466


LIABILITIES (Note 7)
Intragovernmental:
  Accounts payable                                       7,205,984                     4,736,945
  Other (Note 8)                                         1,539,434                     1,890,283
Total intragovernmental                                  8,745,418                     6,627,228


  Accounts payable                                       2,064,094                     2,229,247
  Other (Note 8)                                         5,107,097                     5,083,917
Total liabilities                                       15,916,609                    13,940,392


Commitments and contingencies (Notes 9 and 10)


NET POSITION
 Unexpended appropriations                              47,650,941                    43,181,049
  Cumulative results of operations                      28,442,039                     6,426,025
Total net position                                      76,092,980                    49,607,074
Total liabilities and net position                     $92,009,589                   $63,547,466


     The accompanying notes are an integral part of these financial statements


                                                 7
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                  Statements of Net Cost


                                                     For the Years Ended September 30
PROGRAM COSTS (Note 11)                                2011                    2010
Financial systems resistant to abuse by money
launders, terrorists, etc.
  Gross costs                                         $32,297,997            $34,919,697
  Less: earned revenue                                   (70,242)               (27,464)
Net program costs                                      32,227,755             34,892,233


Detection and deterrence of money laundering,
terrorism financing and other illicit activity
   Gross costs                                         30,531,119             31,656,114
  Less: earned revenue                                  (852,816)              (291,533)
Net program costs                                      29,678,303             31,364,581


Efficient management, safeguarding, and use
of BSA Information
   Gross costs                                         60,570,065             61,460,683
  Less: earned revenue                                (2,074,697)             (3,039,429)
Net program costs                                      58,495,368             58,421,254




Net cost of operations                               $120,401,426           $124,678,068




    The accompanying notes are an integral part of these financial statements


                                                 8
                           United States Department of the Treasury
                            Financial Crimes Enforcement Network
                             Statements of Changes in Net Position

                                                              For the Years Ended September 30
                                                               2011                      2010
Cumulative Results of Operations:
  Beginning balances                                           $6,426,025               $2,106,763


Budgetary financing sources:
  Appropriations used                                         105,774,845               98,285,880

Other financing sources (non-exchange):

  Transfers in without reimbursement                           13,633,131                3,944,045
  Imputed financing from costs absorbed by others (Note 6)     23,009,464               26,416,610
  Other                                                                 -                  350,795
Total financing sources                                       142,417,440              128,997,330

Net cost of operations (Note 11)                             (120,401,426)            (124,678,068)
Net change                                                     22,016,014                 4,319,262


Cumulative results of operations                              $28,442,039               $6,426,025


Unexpended appropriations:
  Beginning balance                                           $43,181,049              $31,558,804


Budgetary financing sources:
  Appropriations received                                     111,010,000              111,010,000
  Other adjustments                                             (765,263)               (1,101,875)
  Appropriations used                                        (105,774,845)             (98,285,880)
Total budgetary financing sources                               4,469,892               11,622,245


Total unexpended appropriations                                47,650,941               43,181,049


Net position                                                  $76,092,980              $49,607,074



    The accompanying notes are an integral part of these financial statements

                                                  9
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources


                                                         For the Years Ended September 30
                                                          2011                     2010
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $28,037,420             $25,041,311
Recoveries of prior year unpaid obligations (Note 12)      1,420,440               1,460,155
Budget authority:
Appropriations                                           111,010,000             111,010,000
  Spending authority from offsetting collections:
    Earned
      Collected                                           14,484,231               4,307,253
      Change in receivables from Federal sources           2,146,656               2,995,219
    Change in unfilled customer orders
      Without advance from Federal sources                (3,875,692)              2,887,812
  Subtotal                                               123,765,195             121,200,284
Permanently not available (Note 12)                         (765,263)            (1,101,875)
Total budgetary resources                               $152,457,792            $146,599,875

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
 Direct                                                 $105,604,852            $108,317,644
 Reimbursable                                             12,865,338              10,244,811
  Subtotal                                               118,470,190             118,562,455
Unobligated balance:
  Apportioned                                             31,556,426              25,789,557
Unobligated balance not available                          2,431,176               2,247,863
Total status of budgetary resources                     $152,457,792            $146,599,875


                                                        (Continued)




   The accompanying notes are an integral part of these financial statements



                                                  10
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources

                                                             For the Years Ended September 30
                                                               2011                    2010
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
    Unpaid obligations brought forward, October 1            $29,542,142            $14,568,575
    Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                   (10,361,919)            (4,478,888)
Unpaid obligated balance, net                                  19,180,223             10,089,687
Obligations incurred, net                                     118,470,190            118,562,455
Less: Gross outlays                                         (119,492,110)          (102,128,733)
Less: Recoveries of prior year unpaid obligations, actual      (1,420,440)            (1,460,155)
Change in uncollected customer payments from Federal
     sources                                                    1,729,036            (5,883,031)
Obligated balance, net, end of period:
    Unpaid obligations                                        27,099,782             29,542,142
    Less: Uncollected customer payments from Federal
      sources
                                                              (8,632,882)           (10,361,919)
Total, unpaid obligated balance, net, end of period          $18,466,900            $19,180,223


NET OUTLAYS
   Gross outlays                                            $119,492,110           $102,128,733
   Less: Offsetting collections                              (14,484,231)            (4,307,253)
   Less: Distributed offsetting receipts                            (774)                    -
Net outlays                                                 $105,007,105            $97,821,480




   The accompanying notes are an integral part of these financial statements



                                                   11
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                             Statements of Custodial Activity


                                                       For the Years Ended September 30
                                                           2011                 2010
Revenue activity (Note 13):
    Sources of cash collections:
       Civil monetary penalties                            $286,774            $1,050,000
    Total cash collections                                  286,774             1,050,000


     Accrual Adjustment                                      25,000                    -

Total custodial revenue                                     311,774             1,050,000


Disposition of collections:
    Transferred to others:
       Department of the Treasury                          (286,774)           (1,050,000)


          Accrual Adjustment                                (25,000)                   -
Total Disposition of Custodial Revenue & Collections       (311,774)           (1,050,000)



Net custodial activity                                 $          -        $           -




    The accompanying notes are an integral part of these financial statements

                                               12
                       United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2011 and 2010


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the
Department of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau
status October 26, 2001 in Public Law 107-56. The mission of FinCEN is to enhance U. S.
national security, deter and detect criminal activity, and safeguard the financial systems from
abuse by promoting transparency in the U.S. and international financial systems. This is
accomplished primarily through the administration of the Bank Secrecy Act (BSA); supporting
law enforcement, intelligence, and regulatory agencies through sharing and analysis of financial
intelligence; enhancing international anti-money laundering and counterterrorist financing efforts
and cooperation; and networking people, entities, ideas, and information.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity
with accounting principles generally accepted in the United States of America. Accounting
principles generally accepted for Federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the
United States Government.

These financial statements are provided to assist the Department of the Treasury meet the
requirements of the Government Management Reform Act of 1994. The financial statements
consist of the balance sheets and the statements of net costs, changes in net position, budgetary
resources and custodial activity. The financial statements and the related notes are presented on a
comparative basis.

FinCEN’s financial statements with respect to the balance sheets, the statements of net cost, and
the statements of changes in net position are reported using the accrual basis of accounting.
Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. FinCEN’s statement of
budgetary resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. It
generally differs from the accrual basis of accounting in that obligations are recognized when
new orders are placed, contracts awarded, and services received, that will require payments
during the same or future periods. FinCEN’s non-entity revenues are reported on the statement
of custodial activity using a modified accrual basis of accounting. With this method, revenue
from cash collections are reported separately from receivable accruals and cash disbursements
are reported separately from payable accruals. Intragovernmental assets and liabilities result

                                                13
from activity with other Federal agencies. All other assets and liabilities result from activity with
parties outside the Federal government, such as domestic and foreign persons, organizations, or
governments. Intragovernmental earned revenues are collections or accruals of revenue from
other Federal agencies, and intragovernmental costs are payments or accruals to other Federal
agencies.

While these financial statements have been prepared from the books and records of FinCEN,
these financial statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, where liabilities not covered by budgetary resources cannot be liquidated
without the enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash
receipts and disbursements. Fund balance with Treasury is composed of appropriated and trust
funds that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the
public.

Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN.
These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and
the levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s
regulatory responsibilities. Public accounts receivable are presented net of an allowance for
doubtful accounts, which is determined by considering the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Advances and Prepayments
Intragovernmental advances and prepayments primarily consist of amounts paid to the
Department of the Treasury Working Capital Fund and the Department of Interior National
Business Center Franchise Fund Acquisition Services Directorate prior to FinCEN’s receipt of
goods and services.

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight-line method over
the estimated useful lives of the assets. FinCEN’s capitalization threshold for general property
and equipment is established at minimum of $25,000, and an estimated useful life of two years or
more. FinCEN’s capitalization threshold for bulk purchases is established at a minimum of

                                                 14
$100,000 per lot and $5,000 per line item. The cost of each individual item must be at least
$5,000, but below the minimum capitalization threshold of $25,000. Any item in the lot that
meets the capitalization threshold of $25,000 is capitalized separately and not considered to be a
part of the bulk purchase lot.

Internal-use software includes commercial off-the-shelf (COTS), internally and contractor
developed software and license fees with a cost of $125,000 or more and an estimated useful life
of 2 years or more. Capitalized costs for internally developed software include the full cost
(direct and indirect) incurred during the software development phase. Costs associated with the
preliminary design phase, and the post-implementation/operational phases are expensed as
incurred. For COTS software, the capitalized cost includes the amount paid to the vendor for the
software. Capitalized costs for contractor developed software include the amount paid to a
contractor to design, program, install and implement the software.

Enhancements to internal use software are capitalized if the costs are $125,000 or more, have an
estimated useful life of 2 years or more, and add significant additional capabilities. Costs
incurred solely to repair a design flaw or to perform minor upgrades that may extend the useful
life without adding capabilities are expensed.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation,
or approval for disposal of property and equipment, the value of the related asset and
corresponding accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of
the lease, or the useful life of the improvement. Amortization of capitalized software begins on
the date the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and is
valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as
a result of past transactions or events. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay
amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken.
The balance in the accrued annual leave account reflects current pay rates and leave balances, and
is reported within other liabilities in the accompanying Balance Sheet. Sick leave and other types
of non-vested leave are charged to operating costs as the leave is taken.

                                                15
Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual
liability is presented as a component of intragovernmental other liabilities, and the actuarial
liability is presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have incurred work-related occupational diseases and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits to employees are administered by the U.S. Department of
Labor (DOL) which initially pays valid claims and subsequently seeks reimbursement from the
Federal agencies employing the claimants. Reimbursement to DOL occurs approximately two
years subsequent to the actual disbursement to the claimant. Budgetary resources for this
intragovernmental liability are made available to FinCEN as part of its annual appropriation from
Congress in the year in which the reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for
future workers’ compensation benefits includes the expected liability for death, disability,
medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Based on information provided by the DOL, Treasury allocates
the overall Treasury liability to Treasury components based on prior claims payment experience.
The accrued liability is not covered by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration
(GSA) for the Vienna, VA facility contain a rent abatement period. FinCEN is recognizing rent
expense on a straight-line basis over the lease term. Accordingly, an unamortized rent abatement
liability is included in other intragovernmental liabilities in the accompanying Balance Sheet.
This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service
Retirement System (CSRS). As of September 30, 2011 and 2010, FinCEN contributed 7 percent
of base pay for regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2011 and 2010, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is
that it offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and
matches employee contributions up to an additional 4 percent of base pay. FinCEN also
contributes the employer’s Social Security matching share for FERS participants.

                                                 16
FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to FinCEN employees. Reporting such amounts is the responsibility of the Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not
contribute funds for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by
OPM. The additional expense representing the difference between the estimated cost and the
employer and employee contributions for these programs is included as an expense and as a
related imputed financing source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or
assets are purchased. Exchange revenue from reimbursable agreements is recognized when
earned (i.e., goods have been delivered or services rendered). Reimbursable work between
Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes
authorizing reimbursement. Prices for goods and services sold to other Federal agencies are
generally limited to the recovery of actual costs. FinCEN recognizes as an imputed financing
source the amount of pension and post-retirement benefit expense for current employees paid on
behalf of FinCEN by the Office of Personnel Management (OPM), as well as amounts paid from
the Department of Treasury Judgment Fund in settlement of claims, legal settlements, or court
assessments. When costs that are identifiable to FinCEN and directly attributable to FinCEN’s
operations are paid for by other agencies, FinCEN recognizes these amounts as imputed costs
and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods
and services received by FinCEN from a providing bureau that is part of Treasury. FinCEN
identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to
the entity, directness of the relationship to entity operations, identifiably) that are not fully
reimbursed and recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-entity
accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported on
FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary

                                                   17
penalties represent amounts assessed on or collected from non-Federal sources for violations of
laws and regulations under FinCEN’s regulatory responsibility.

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that
have been established as a legally enforceable claim and collection is probable. Proceeds from
the civil monetary penalty assessments are ultimately deposited in the Treasury General Fund
based on established laws and regulations. These funds are not available to fund FinCEN’s
operating activities and accordingly, an offsetting liability due to the Treasury General Fund is
recorded for amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An
allowance for doubtful accounts is established based on an assessment of the debtor’s current
ability to pay, the debtor’s payment record and willingness to pay, and an analysis of aged
receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities, the disclosure of contingencies at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period.
Significant estimates relate to an allowance for loss on a receivable for fines and penalties,
accrued payroll and benefits, and accrued unfunded leave. Actual results may differ from those
estimates.

NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2011 and 2010 consisted of the following:
                                                             2011                              2010
 Civil penalties assessed                                  $1,571,000                        $1,500,000
 Less allowance for doubtful collection                    (1,546,000)                       (1,500,000)

            Total non-entity assets                                   25,000                          -
 Total entity assets                                              91,984,589                 63,547,466
           Total assets                                         $92,009,589                 $63,547,466

Non-entity accounts receivable as of September 30, 2011 and 2010 primarily represents civil
monetary penalties due from non-Federal sources for violations of laws or regulations under
FinCEN’s regulatory responsibility.

The total non-entity assets, if any, are offset on the balance sheet by the custodial liability Due to the
Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.


                                                   18
NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2011 and 2010 consisted of the following
components:
                                            2011                  2010

Trust funds                                        $65,164                   $65,164
Appropriated funds                              52,389,338                47,152,479

Total                                         $52,454,502               $47,217,643

Trust funds consist of a violent crime reduction expenditure account that is designated by law as a
trust fund. Receipts in this account are used for law enforcement related information technology
projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of
FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2011 and 2010 consisted of the
following:

                                                  2011                       2010
Unobligated balance:
  Available                                    $31,556,426               $25,789,557
  Unavailable                                    2,431,176                 2,247,863
Obligated balance not yet disbursed             18,466,900                19,180,223

Total                                          $52,454,502               $47,217,643


The unobligated balance unavailable represents amounts appropriated in prior fiscal years that are
not available to fund new obligations, but may be used to adjust obligations and disbursements that
were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not yet
been made.




                                                19
NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2011 and 2010, were as follows:

                                                       2011                   2010
Intragovernmental:
   Accounts receivable                               $6,468,599            $4,321,943
Public:
   Accounts receivable                                    10,062                1,851
   Civil penalties assessed                            1,571,000            1,500,000
   Less allowance for doubtful collection            (1,546,000)          (1,500,000)
   Public accounts receivable, net                       35,062                  1,851
Total accounts receivable, net                       $6,503,661            $4,323,794

Intragovernmental accounts receivable arise generally from the provision of goods and services to
other Federal agencies.

Accounts receivable from public sources consist of administrative receivables from employees or
suppliers and civil monetary penalties which have been billed or accrued and remain uncollected as
of year-end. The collection of civil monetary penalties is a custodial activity performed by FinCEN.
 An allowance for doubtful accounts of $1,546,000 has been recognized to offset civil monetary
penalties. The claim for $1,500,000 has been referred to Department of Justice for possible
termination of collection activity.




                                                20
      NOTE 5. PROPERTY AND EQUIPMENT, NET

     Property and equipment as of September 30, 2011 and 2010 consisted of the following:
                                                                                    2011
                                              Useful                           Accumulated              Net
                           Depreciation        Life           Acquisition      Depreciation/           Book
                             Method         (In years)           Cost          Amortization            Value
Furniture, fixtures and
     equipment                  S/L           5-7              $14,006,221      ($5,173,008)         $8,833,213
Construction in                 N/A           N/A                  117,173                 -            117,173
progress
Internal-use software           S/L             5               25,512,273      (13,508,591)         12,003,682
Internal-use software in
     development                N/A           N/A               11,228,467                 -         11,228,467
Leasehold                       S/L           3-5                1,415,002       (1,017,402)            397,600
improvements
Total                                                          $52,279,136     ($19,699,001)        $32,580,135


                                                                                  2010
                                              Useful                         Accumulated                Net
                           Depreciation        Life       Acquisition        Depreciation/             Book
                             Method         (In years)       Cost            Amortization              Value
Furniture, fixtures and
    equipment                   S/L           5-7               $5,392,572      ($3,857,232)         $1,535,340
Construction in                 N/A           N/A                  802,479                 -            802,479
progress
Internal-use software           S/L             5               16,395,699      (11,018,396)           5,377,303
Internal-use software in
     development                N/A           N/A                2,772,370                 -           2,772,370
Leasehold                       S/L           3-5                1,319,575         (835,015)             484,560
improvements
Total                                                          $26,682,695     ($15,710,643)        $10,972,052

     Construction-in-progress represents equipment that has been received but has not yet been
     constructed and placed into operation.

     Internal-use software in development represents actual (direct) costs and other indirect costs incurred
     for various software development projects not yet placed in service. Depreciation and amortization
     expense recognized during the year ended September 30, 2011 and 2010 was $4,376,211 and
     $2,291,942, respectively.


                                                         21
NOTE 6. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs borne by the Office of Personnel Management for employee
related costs as well as with the Internal Revenue Service. Imputed financing costs borne by the
Internal Revenue Service relate to the collection and processing of Bank Secrecy Act Data. A
summary of the imputed financing costs by agency for the years ended September 30, 2011 and 2010
is as follows:
                                                    2011                    2010

Office of Personnel Management                    $2,681,522                 $2,959,710
Internal Revenue Service                          20,327,942                 23,456,900
Total Imputed Financing Sources                  $23,009,464               $26,416,610




NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources is
dependent on future congressional appropriations. The September 30, 2011 and 2010 liabilities not
covered by budgetary resources consisted of the following:

                                                               2011                     2010
Intragovernmental:
     Accrued workers’ compensation                             $15,045                    $3,143
     Unamortized rent abatement                              1,022,285                 1,394,025
             Total intragovernmental                         1,037,330                 1,397,168
Public:
     Accrued annual leave                                    2,966,749                 3,037,778
     Actuarial liability for workers’ compensation              53,963                    22,816
             Total public                                    3,020,712                 3,060,594
Total liabilities not covered by budgetary resources         4,058,042                 4,457,762
Total liabilities covered by budgetary resources or
     non-entity assets                                      11,858,567                 9,482,630
             Total liabilities                             $15,916,609               $13,940,392




                                                22
NOTE 8. OTHER LIABILITIES
Other liabilities as of September 30, 2011 and 2010 consisted of the following:
                                                                    2011
                                             Non-Current          Current              Total
Intragovernmental:
   Due to the Treasury General Fund          $           -      $      25,000     $       5,000
   Accrued employee benefits                             -            477,104            477,104
   Accrued workers’ compensation                    14,529                516             15,045
   Unamortized rent abatement                      650,545            371,740          1,022,285
Total intragovernmental                            665,074            874,360          1,539,434

Public:
  Accrued payroll and employee benefits                   -         2,086,385          2,086,385
  Accrued annual leave                                    -         2,966,749          2,966,749
  Actuarial liability for workers’
     compensation                                   53,963                  -             53,963
Total public                                        53,963          5,053,134          5,107,097
Total other liabilities                           $719,037       $5,927,494           $6,646,531


                                                                     2010
                                             Non-Current            Current            Total
Intragovernmental:
   Due to the Treasury General Fund          $            -     $           -     $            -
   Accrued employee benefits                              -           493,115            493,115
   Accrued workers’ compensation                        516             2,627              3,143
   Unamortized rent abatement                     1,022,285           371,740          1,394,025
Total intragovernmental                           1,022,801           867,482          1,890,283

Public:
  Accrued payroll and employee benefits                   -         2,023,323          2,023,323
  Accrued annual leave                                    -         3,037,778          3,037,778
  Actuarial liability for workers’
     compensation                                   22,816                    -           22,816
Total public                                        22,816          5,061,101          5,083,917
Total other liabilities                          $1,045,617      $5,928,583           $6,974,200


Amounts due to other agencies include payroll collections received for employees of those
agencies.

                                              23
NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is not
committed to continue to pay rent to GSA beyond the period occupied providing proper advance
notice to GSA is made. However, it is expected that FinCEN will continue to occupy and lease
office space from GSA in future years. The lease expense incurred related to GSA leases during
fiscal years 2011 and 2010 was $4,793,612 and $4,722,838 respectively.

As of September 30, 2011 future lease payments due under non-cancelable operating leases are as
follows:

                              2012                         $24,361
                              2013                          24,361
                              2014                          24,361
                              2015                          24,361
                              2016                          24,361
                              Thereafter                   282,181
                              Total future payments       $403,986


NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. In the opinion of
management and legal counsel, no legal actions against FinCEN were both probable and estimable as
of September 30, 2011 and 2010, and no legal liabilities have been accrued in the accompanying
financial statements.

There were no pending or threatened litigation or unasserted claims that required disclosure as of
September 30, 2011 and 2010.




                                               24
NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and exchange revenue for the years ended September 30, 2011 and
2010 consisted of the following:
                                                                2011              2010
PROGRAM COSTS
Financial systems resistant to abuse by money
launders, terrorists, etc.

  Intragovernmental costs                                   $17,763,944       $19,477,413
  Public costs                                               14,534,053        15,442,284
     Total program costs                                     32,297,997         34,919,697
  Intragovernmental earned revenue                             (70,242)           (27,464)
Net program cost                                             32,227,755         34,892,233

Detection and deterrence of money laundering,
terrorism financing and other illicit activity

  Intragovernmental costs                                    16,792,158         17,657,061
  Public costs                                               13,738,961         13,999,053
     Total program costs                                     30,531,119         31,656,114
  Intragovernmental earned revenue                            (852,816)          (291,533)
Net program cost                                             29,678,303         31,364,581

Efficient management, safeguarding,
and use of BSA information

  Intragovernmental costs                                    33,313,621         34,281,371
  Public costs                                               27,256,444         27,179,312
     Total program costs                                     60,570,065        61,460,683
  Intragovernmental earned revenue                           (2,074,697)       (3,039,429)
Net program cost                                             58,495,368         58,421,254


Net cost of operations                                     $120,401,426      $124,678,068




                                            25
The criteria used for this classification are that the intragovernmental costs relate to the source of
goods and services purchased by the reporting entity, and not to the classification of related
revenue. For example, “exchange revenue with the public” is when the buyer of the goods or
services is a non-Federal entity. While with “intragovernmental costs,” the buyer and seller are
both Federal entities. If a Federal entity purchases goods or services from another Federal entity
and sells them to the public, the exchange revenue would be classified as “with the public,” but
the related costs would be classified as “intragovernmental.” The purpose of this classification is
to enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.


NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2011 and 2010 consisted of the following:
                                                 2011                  2010
 Direct Obligations
    Category B                               $105,604,852           $108,317,644
 Reimbursable Obligations
    Category B                                  12,865,338            10,244,811
 Total                                           $118,470,190               $118,562,455

Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects, or
objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2011 and 2010
consisted of the following:
                                              2011                   2010

 Recoveries of prior year obligations           $1,420,440               $1,460,155
 Cancellations of expired accounts               (543,243)               (1,101,875)
 Enacted Recissions                              (222,020)                         -

 Total                                            $655,177                  $358,280

Differences Between the Statement of Budgetary Resources and the Budget of the United States
The fiscal year 2013 Budget of the United States Government (also known as the President’s Budget)
with actual numbers for fiscal year 2011, was not published at the time these financial statements

                                                  26
were issued. The President’s Budget is expected to be published in February 2012. There were no
material differences between the fiscal year 2010 Statement of Budgetary Resources and the actual
fiscal year 2010 balances included in the fiscal year 2012 President’s Budget.
Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2011 and 2010 were $15,737,507 and $21,093,488,
respectively.


NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2011 and 2010 cash collections and distributions to Treasury were $286,774 and $1,050,000
respectively. The custodial accrual adjustment totaling $25,000 at September 30, 2011 reflects
the change in accounts receivable FinCEN has which are offset by the increase in custodial
liability – amounts yet to be transferred of $25,000.




                                               27
NOTE 14. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
   TO BUDGET
A reconciliation of net cost of operations to budget for the years ended
   September 30, 2011 and 2010 follows:
                                                                 For the Years Ended September 30
                                                                       2011               2010
Resources used to finance activities:
Budgetary resources obligated:
    Obligations incurred                                            $118,470,190     $118,562,455
    Less: Spending authority from offsetting collections and
      recoveries
                                                                     (14,175,635)     (11,650,439)
     Obligations net of offsetting collections and recoveries        104,294,555      106,912,016
     Less: Offsetting receipts                                              (774)                  -
     Net obligations                                                 104,293,781      106,912,016
Other resources:
    Transfers in without reimbursement                                13,633,131        3,944,045
    Imputed financing from costs absorbed by others                   23,009,464       26,416,610
    Other                                                                      -          350,795
     Net other resources used to finance activities                   36,642,595       30,711,450

Total resources used to finance activities                           140,936,376      137,623,466

Resources used to finance items not part of the net cost of operations:
Change in budgetary resources obligated for goods, services
    and benefits ordered but not yet provided                         (1,480,290)          8,568,379
Resources that fund expenses recognized in prior periods                  442,769            376,353
Budgetary offsetting collections and receipts that do not affect
    net cost of operations
      Other                                                            13,632,357          3,944,045
Resources that finance the acquisition of assets                      25,993,059           6,655,967
Other resources or adjustments to net obligated resources that
    do not affect net cost of operations
                                                                     (13,633,131)      (3,593,250)
Total resources used to finance items not part of the net              24,954,764      15,951,494
cost of operations

Total resources used to finance the net cost of operations           115,981,612      121,671,972



                                                                             (Continued)



                                                      28
                                                           For the Years Ended September 30

                                                               2011               2010
Components of the net cost of operations that will not
require or generate resources in the current period:
Components requiring or generating resources in future
periods:
  Increase in annual leave liability                                  $0           $218,678
  Other                                                           43,050                  -
Total components of net cost of operations that will
require or generate resources in future periods                   43,050            218,678
Components not requiring or generating resources:
  Depreciation and amortization                                4,376,211          2,291,942
  Revaluation of assets or liabilities                              8,764           496,057
  Other                                                           (8,211)             (581)
Total components of net cost of operations that will not
require or generate resources                                  4,376,764          2,787,418


Total components of net cost of operations that will not
require or generate resources in the current period            4,419,814          3,006,096


Net cost of operations                                      $120,401,426       $124,678,068




                                                29
                                    United States Department of the Treasury
                                 Financial Crimes Enforcement Network
                                  Required Supplementary Information
                            For the Years Ended September 30, 2011 and 2010

STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2011 and 2010
consisted of the following:
                                                                                   2011
                                                             Appropriated        Trust
                                                                Funds            Funds         Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $27,972,256        $65,164       $28,037,420
Recoveries of prior year unpaid obligations                     1,420,440                 -      1,420,440

Budget authority:
    Appropriations                                            111,010,000                 -    111,010,000
Spending authority from offsetting collections:
    Earned
       Collected                                               14,484,231                 -     14,484,231
       Change in receivables from Federal sources               2,146,656                 -      2,146,656
    Change in unfilled customer orders
       Without advance from Federal sources                    (3,875,692)                -    (3,875,692)
     Subtotal                                                 123,765,195                      123,765,195
                                                                                          -
Permanently not available                                       (765,263)                 -      (765,263)
Total budgetary resources                                    $152,392,628        $65,164      $152,457,792


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
    Direct                                                   $105,604,852    $            -   $105,604,852
    Reimbursable                                               12,865,338                 -     12,865,338
    Subtotal                                                  118,470,190                 -    118,470,190
Unobligated balance:
    Apportioned                                                31,491,262         65,164        31,556,426
Unobligated balance not available                               2,431,176                 -      2,431,176
Total status of budgetary resources                          $152,392,628        $65,164      $152,457,792




                                                                             (Continued)



                                                       30
                                                                                              2011
                                                                         Appropriated         Trust
                                                                           Funds              Funds          Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
     Unpaid obligations brought forward, October 1                        $29,542,142     $           -    $29,542,142
     Less: Uncollected customer payments from Federal sources, brought
       forward, October 1                                                 (10,361,918)                -    (10,361,918)
     Total unpaid obligated balance, net                                     19,180,224               -       19,180,224
Obligations incurred, net                                                  118,470,190                -     118,470,190
Less: Gross outlays                                                      (119,492,110)                -   (119,492,110)
Less: Recoveries of prior year unpaid obligations, actual                   (1,420,440)               -      (1,420,440)
Change in uncollected customer payments from Federal
     sources                                                                 1,729,036                -       1,729,036
Obligated balance, net, end of period
     Unpaid obligations                                                     27,099,782                -      27,099,782
    Less: Uncollected customer payments from Federal sources               (8,632,882)                -     (8,632,882)
Total, unpaid obligated balance, net, end of period                       $18,466,900     $           -    $18,466,900

NET OUTLAYS
    Gross outlays                                                        $119,492,110     $           -   $119,492,110
    Less: Offsetting collections                                          (14,484,231)                -    (14,484,231)
    Less: Distributed offsetting receipts                                        (774)                -           (774)
Net outlays
                                                                         $105,007,105     $           -   $105,007,105




                                                               31
                                United States Department of the Treasury
                                 Financial Crimes Enforcement Network
                                  Required Supplementary Information
                            For the Years Ended September 30, 2011 and 2010

                                                                                 2010

                                                             Appropriated       Trust
                                                                Funds           Funds        Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                $25,001,852        $39,459    $25,041,311
Recoveries of prior year unpaid obligations                       1,425,096        35,059      1,460,155
Budget authority:
    Appropriations                                             111,010,000              -    111,010,000
Spending authority from offsetting collections:
        Earned
           Collected                                              4,307,253             -      4,307,253
           Change in receivables from Federal sources             2,995,219             -      2,995,219
       Change in unfilled customer orders
           Without advance from Federal sources                   2,887,812             -      2,887,812

     Subtotal                                                  121,200,284              -    121,200,284

Permanently not available                                       (1,101,875)                  (1,101,875)
Total budgetary resources                                     $146,525,357        $74,518   $146,599,875


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
      Direct                                                  $108,308,290         $9,354   $108,317,644
      Reimbursable                                              10,244,811                    10,244,811
    Subtotal                                                   118,553,101          9,354    118,562,455
Unobligated balance:
      Apportioned                                               25,724,393         65,164     25,789,557
Unobligated balance not available                                2,247,863                     2,247,863
Total status of budgetary resources                           $146,525,357        $74,518   $146,599,875


                                                                              (Continued)




                                                        32
                                                                                      2010
                                                                 Appropriated        Trust
                                                                   Funds             Funds          Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net
     Unpaid obligations brought forward, October 1                $14,485,113        $83,462      $14,568,575
     Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                         (4,478,888)             -       (4,478,888)
Total unpaid obligated balance, net                                 10,006,225        83,462        10,089,687
Obligations, incurred, net                                        118,553,101          9,354      118,562,455
Less: Gross outlays                                              (102,070,97)        (57,757)    (102,128,733)
Less: Recoveries of prior year unpaid obligations, actual         (1,425,096)        (35,059)      (1,460,155)

Change in uncollected customer payments from Federal sources      (5,883,031)                -     (5,883,031)
Obligated balance, net, end of period
     Unpaid obligations                                            29,542,142                -     29,542,142
     Less: Uncollected customer payments from Federal sources    (10,361,919)                -    (10,361,919)
Total, unpaid obligated balance, net, end of period               $19,180,223    $           -    $19,180,223


NET OUTLAYS
     Gross outlays                                               $102,070,976        $57,757     $102,128,733
     Less: Offsetting collections                                 (4,307,253)                -     (4,307,253)
     Less: Distributed offsetting receipts                                   -               -               -
Net outlays                                                       $97,763,723        $57,757      $97,821,480




                                                            33
                 Certified Public Accountants
                 & Consultants


                                    Independent Auditor's Report on Financial Statements
www.gkacpa.com

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:

                          We have audited the accompanying balance sheets of the U.S. Department of
                          the Treasury - Financial Crimes Enforcement Network (FinCEN) as of
                          September 30, 2011 and 2010, and the related statements of net cost, changes
                          in net position, budgetary resources and custodial activity (hereinafter referred
                          to as “financial statements”) for the years then ended. These financial
                          statements are the responsibility of FinCEN’s management. Our responsibility
                          is to express an opinion on these financial statements based on our audits.

                          We conducted our audits in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended. Those standards and OMB Bulletin
                          07-04 require that we plan and perform the audits to obtain reasonable
                          assurance about whether the financial statements are free of material
                          misstatement. An audit includes examining, on a test basis, evidence
                          supporting the amounts and disclosures in the financial statements. An audit
                          also includes assessing the accounting principles used and significant estimates
                          made by management, as well as evaluating the overall financial statement
                          presentation. We believe that our audits provide a reasonable basis for our
                          opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of FinCEN as of September 30, 2011,
                          and 2010, and its net costs, changes in net position, budgetary resources and
                          custodial activity for the years then ended in conformity with accounting
                          principles generally accepted in the United States of America.

                          The information in the Management’s Discussion and Analysis and Required
                          Supplementary Information sections is not a required part of the financial
                          statements, but is supplementary information required by accounting principles
                          generally accepted in the United States of America and OMB Circular A-136,
  1015 18th Street, NW    Financial Reporting Requirements. We have applied certain limited
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this
information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 14, 2011, on our consideration of FinCEN’s internal control over financial
reporting, and on our tests of its compliance with certain provisions of applicable laws,
regulations, and contracts. These reports are an integral part of an audit performed in
accordance with Government Auditing Standards, and should be read in conjunction with this
report in considering the results of our audit.




November 14, 2011




                                            35
                 Certified Public Accountants
                 & Consultants


                              Independent Auditor's Report on Internal Control over Financial
www.gkacpa.com                                         Reporting

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:

                          We have audited the balance sheet and the related statements of net cost,
                          changes in net position, budgetary resources and custodial activity, hereinafter
                          referred to as “financial statements” of the U.S. Department of the Treasury -
                          Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2011, and have issued our report thereon dated November 14,
                          2011. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                          Financial Statements, as amended.

                          In planning and performing our audit, we considered FinCEN’s internal control
                          over financial reporting by obtaining an understanding of the design
                          effectiveness of FinCEN’s internal control, determined whether these internal
                          controls had been placed in operation, assessed control risk, and performed
                          tests of controls as a basis for designing our auditing procedures for the
                          purpose of expressing our opinion on the financial statements. We limited our
                          internal control testing to those controls necessary to achieve the objectives
                          described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                          We did not test all internal controls relevant to operating objectives as broadly
                          defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                          those controls relevant to ensuring efficient operations. The objective of our
                          audit was not to provide an opinion on the effectiveness of FinCEN’s internal
                          control over financial reporting. Consequently, we do not provide an opinion
                          on the effectiveness of FinCEN’s internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might
                          be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                          in internal control exists when the design or operation of a control does not
                          allow management or employees, in the normal course of performing their
  1015 18th Street, NW    assigned functions, to prevent or detect and correct misstatements on a timely
        Suite 200         basis. A significant deficiency is a deficiency or a combination of deficiencies,
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that
a material misstatement of the entity’s financial statements will not be prevented, or detected
and corrected on a timely basis.

We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and the U.S. Congress, and is not intended to be, and should not be used by
anyone other than these specified parties. However, this report is a matter of public record and
its distribution is not limited.




November 14, 2011




                                               37
                 Certified Public Accountants
                 & Consultants


                                      Independent Auditor's Report on Compliance with
www.gkacpa.com                                     Laws and Regulations

                          Inspector General, U.S. Department of the Treasury, and
                          Director, Financial Crimes Enforcement Network:


                          We have audited the balance sheet and the related statements of net cost,
                          changes in net position, budgetary resources and custodial activity, hereinafter
                          referred to as “financial statements” of the U.S. Department of the Treasury -
                          Financial Crimes Enforcement Network (FinCEN) as of and for the year ended
                          September 30, 2011, and have issued our report thereon dated November 14,
                          2011. We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and, the applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements, as amended.

                          The management of FinCEN is responsible for complying with laws and
                          regulations applicable to FinCEN. As part of obtaining reasonable assurance
                          about whether FinCEN’s financial statements are free of material
                          misstatement, we performed tests of its compliance with certain provisions of
                          laws and regulations and contracts, noncompliance with which could have a
                          direct and material effect on the determination of financial statement amounts,
                          and certain provisions of other laws and regulations specified in OMB Bulletin
                          No. 07-04, including certain requirements referred to in Section 803(a) of the
                          Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to the provisions described in the preceding
                          sentence, and we did not test compliance with all laws, regulations and
                          contracts applicable to FinCEN. However, our objective was not to provide an
                          opinion on overall compliance with laws, regulations and contracts.
                          Accordingly, we do not express such an opinion.

                          The results of our tests of compliance with laws, regulations and contracts
                          described in the preceding paragraph, exclusive of FFMIA, disclosed no
                          instances of noncompliance that are required to be reported under Government
                          Auditing Standards and OMB Bulletin No. 07-04.

  1015 18th Street, NW    Under FFMIA, we are required to report whether FinCEN’s financial
        Suite 200         management systems substantially comply with (1) federal financial
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
management systems requirements, (2) applicable federal accounting standards, and (3) the
United States Government Standard General Ledger at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of FinCEN, the
Department of the Treasury Office of Inspector General, the Government Accountability
Office, OMB, and U.S. Congress and is not intended to be, and should not be used by anyone
other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




November 14, 2011




                                             39
